10
APPENDICES TABLE OF CONTENTS
Decision of the U.S. District Court for Central CA, Santa Ana,
Case No. 8:i7-cv-00122- DFM
Decision: November 3, 2017
A1
Decision of the Ninth Circuit Court
Case No. 17-56807
Decision: August 15, 2018..........

A6

Rehearing in the Ninth Circuit Court of Appeals
Case No. 17-56807
Decision: January 8, 2019.................................. A8

A1
UNITED STATES DISTRICT COURT CENTRAL DISTRICT OF CALIFORNIA

NAORA BEN-DOV,
Plaintiff,
v.
SHOSHANA ZELDA SRAGOW, AKA
Stacy Suzanne Sragow; et al.,

Defendants
SA CV 17-00122-DFM
Proceedings ^

(In Chambers) Order (l) Granting Defendants’ Motions for
Summary Judgment (Dkt. 45, 55) and (2) Denying
Defendants’ Motion for Sanctions (Dkt. 62)

Before- Honorable Douglas F. McCormick
Defendants’ Motions for Summary Judgment
Defendants move for summary judgment. Because the three-year statute of
limitations applicable to Plaintiff s claims expired before the original state -court
complaint was filed in 2016, Defendants’ motions are granted.
The parties do not dispute that a three-year statute of limitations applies to
Plaintiff s claims.
See S. Sragow MSJ at 8; Opp’n at 10; see also Dkt. 18 at 4-5. The original statecourt complaint was filed on December 1, 2016. See Dkt. U1 at 1. Thus, any of
Plaintiffs claims that accrued before December 1, 2013, are barred by the statute of
limitations.
Generally speaking, a cause of action accrues when “the cause of action is complete
with all of its elements.” Fox v. Ethicon Endo-Surgery, Inc.. 35 Cal. 4th 797, 806-07
(2005). An important exception to this general rule of accrual is the “discovery
rule,” under which the statute of limitations begins to run when a plaintiff
discovers, or has reason to discover, the cause of action. IdL at 807. A plaintiff has
“reason to discover” a cause of action when the plaintiff has reason to suspect a
factual basis for the elements or has reason to at least suspect the type of wrongdoing

A2
that causes the injury. Id.
Plaintiff bears the burden of proving belated discovery of a cause of action. See
Czaikowski v. Haskell & White. LLP. 208 Cal. App. 4th 166, 174 (2012); see also
April Enterprises, Inc, v.
KTTV. 147 Cal. App. 3d 805, 833 (1983) (“It is plaintiff s burden to establish ‘facts
showing that he was not negligent in failing to make the discovery sooner and that he
had no actual or presumptive knowledge of facts sufficient to put him on inquiry.”’).
A plaintiff claiming delayed discovery must show:
“(l) the time and manner of
discovery and (2) the inability to have made earlier discovery despite reasonable
diligence.” Czaikowski. 208 Cal. App. 4th at 175; see also Fox, 35 Cal.4th at 808.
Here, the undisputed evidence shows that Plaintiff knew about her causes of
action by November 19, 2013, the date of her e-mail to S. Sragow in which she
warned her that “civil. . . charges ... will be filed against you,” including charges
based on “fraud and deception.” Dkt. 59-2 at 1.
Plaintiff argues that she “only began to suspect of Defendant’s wrongdoing the date
she filed the police report [December 4, 2013; see SAC Exh. E] when the response to
her email [December 3, 2013; see Opp’n Exh. 12] was both suspicious and
disconcerting enough to bring in the law.” Opp’n at 10. But Plaintiff s November 19
e-mail contradicts this argument. In it, she alleges that S. Sragow stole her father’s
personal property, misled Plaintiff and her family, and “lied continuously.” Dkt.
59-2 at 1-2. She threatened criminal charges as well as a civil lawsuit “to recoup
the property and personal items value.” IcL at 3. Moreover, Plaintiffs interrogatory
responses confirm the fact that she learned nothing between November 19, 2013, and
December 3, 2013. See Dkt. 59-3 at 3 (“Describe all evidence you discovered between
November 19, 2013, and
December 3, 2013 concerning Defendant Sragow.”) and 59-4 at 3 (“None.”).
Together, the November 19 e-mail and Plaintiffs interrogatory responses establish
that Plaintiffs claims accrued no later than November 19, 2013. Her December 1,
2013 state-court complaint was thus untimely under the three-year statute of
limitations applicable to her claims.
Moreover, even if the Court accepted Plaintiffs argument that her claims did not
accrue until December 4, 2013, that argument would not save her claims against
Defendants A. Sragow and T. Breton. Plaintiff s own allegations in her original
complaint demonstrate that she was not “genuinely ignorant” of the identity of
Defendants A. Sragow and T. Breton at the time the original complaint was filed. See
Hardesty v. Sacramento Metro. Air Quality Mgmt. Dist., 935 F. Supp. 2d 968, 980
(E.D. Cal. Mar. 25, 2013). As a result, their identification as Defendants in the
Second Amended Complaint does not relate back under CCP § 474 to the filing of the
original complaint on December 1, 2016.

A3
Defendants’ Motion for Sanctions
Defendants also move for sanctions under Rule 11, arguing that Plaintiffs addition
of T. Breton and A. Sragow to the Second Amended Complaint was “frivolous” and
“pure harassment.” Defendants’ motion for sanctions is denied.
The Ninth Circuit has stated that cases warranting sanctions are “rare and
exceptional.” Operating Eng’rs Pension Trust v. A~C Co.. 859 F.2d 1336, 1344 (9th
Cir. 1988). Although, asl988). Although, as noted above, the Court agrees that
Plaintiff was not “genuinely ignorant” of the identity of Defendants T. Breton
and A. Sragow at the time of the original complaint such that their identification
as Defendants in the Second
Amended Complaint relates back to the original complaint under CCP § 474, the
Court does not find that Plaintiffs amendment to add these Defendants makes
this the “rare and exceptional case” in which Rule 11 sanctions are warranted.
Conclusion
For the foregoing reasons, Defendants’ motions for summary judgment in their favor
are GRANTED. Defendants’ motion for Rule 11 sanctions is DENIED. Counsel for
Defendants shall prepare, serve, and submit a proposed judgment consistent with
the Court’s rulings.

November 3, 2017

A4
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
NAORA BEN-DOV,
Plaintiff-Appellant,
v.
SHOSHANA ZELDA SRAGOW, AKA
Stacy Suzanne Sragow! et al.,
Defendants-Appellees.

No. 17-56807
D.C. No. 8:l7-cv-00122-DFM MEMORANDUM
Appeal from the United States District Court for the Central District of California
Douglas F. McCormick, Magistrate Judge, Presiding
Submitted August 15, 2018
Before •'

FARRIS, BYBEE, and N.R. SMITH, Circuit Judges.

Naora Ben-Dov appeals pro se from the district court’s summary judgment in her
diversity action alleging state law claims in connection with her late father’s estate.
We have jurisdiction under 28 U.S.C. § 1291. We review de novo. Lopez v. Smith,
203 F.3d 1122, 1131 (9th Cir. 2000). We affirm.
The district court properly granted summary judgment because BenDov’s action is time-barred under the applicable statute of limitations. See
Cal. Civ. Proc. Code § 338 (three-year statute of limitations); Fox v. Ethicon
EndoSurgeiy, Inc., 110 P.3d 914, 917 (Cal. 2005) (claim accrues under the
delayed discovery rule when the plaintiff has reason to suspect an injury and
some wrongful cause).
The district court did not abuse its discretion in declining to deny or
strike defendants’ motion for summary judgment on the basis of their
alleged failure to meet and confer. See Ghazali v. Moran, 46 F.3d 52, 53 (9th
Cir. 1995^ (setting forth standard of review); see also Harman v. Apfel, 211
F.3d 1172, 1175 (9th Cir. 2000) C‘[T]he decision of a trial court is reversed
under the abuse of discretion standard only when the appellate court is

A5
convinced firmly that the reviewed decision lies beyond the pale of
reasonable justification under the circumstances.”).
We do not consider arguments and allegations raised for the first
time on appeal. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir.
2009).
AFFIRMED.

A6
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
(January 8, 2019)

NAORA BEN-DOV,
Plaintiff-Appellant,
v.
SHOSHANA ZELDA SRAGOW, AKA
Stacy Suzanne Sragow; et al.,
Defendants-Appellees.

No. 17-56807
D.C. No. 8:i7-cv-00122-DFM
Central District of California, Santa Ana

ORDER
Before:

FARRIS, BYBEE, and N.R. SMITH, Circuit Judges.

Ben-Dov’s petition for panel rehearing (Docket Entry No. 22) is denied. No
further filings will be entertained in this closed case

